HHS/OIG-Audit--"ADP Expenditure Reporting Error by the Missouri Department of Social Services, (A-07-98-01034)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"ADP Expenditure Reporting Error by the Missouri Department of Social
Services," (A-07-98-01034)
June 10, 1998
Complete Text of Report is available in PDF format
(399 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of our review of an ADP Expenditure
Reporting Error found in our review of Missouri's Automated child Support System
(MACSS). The State inadvertently reported $3,878,414 for ADP Developmental Expenditures
at the enhanced Federal rate while the amount supported by accounting records
was $1,867,114, a difference of $2,011,300 (Federal share $1,810,170). We attributed
this overstatement to a clerical error made in preparing the OCSE-131. We also
believe if we had not discovered the error, it probably would not have been
detected. We are recommending that the State correct this error and add a review
step to ensure the accuracy of figures reported, before reports are submitted.